No. _______
IN THE SUPREME COURT OF THE UNITED STATES

DOMINIC LINDSEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Kevin Joel Page, do certify that on this date, January 4, 2021, pursuant to
Supreme Court Rules 29.3 and 29.4, I have served the attached Motion for Leave to
Proceed in Forma Pauperis and Petition for a Writ of Certiorari on each party to the
above proceeding, or that party's counsel, and on every other person required to be
served. I have served the Supreme Court of the United States via Federal Express,
priority overnight. The Solicitor General and the petitioner were each served by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid. Assistant
United States Attorney Kristina Williams has been served by email, per her request.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

1

Kristina M. Williams
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, Texas 75242
kristina.williams@usdoj.gov

/s/ Kevin Joel Page
KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

Counsel of Record

2

